SUPREME COURT OF THE UNITED STATES

No.

CERTIFICATE OF SERVICE

I, Andres Chavez, hereby certify that on this 13th day of July 2020,1
caused one copy of the Petition for Writ of Certiorari to be served by
U.S. Mail to the United States Solicitor General at U.S. Department of
Justice 950 Pennsylvania Avenue, NW Washington, DC 20530-0001.
I further certify that all parties required to be served have been served.

Andres Chavez, pro-se
Register Number: 57654-177
FCI Texarkana
FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 7000
Texarkana, TX., 2020.

li

